No.

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE: DAVID ANGEL SIFUENTES III, PETITIONER

PROOF OF SERVICE

I, David Angel Sifuentes III, in Pro Se do swear or declare that on this date, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PA UPERIS and PETITION FOR A WRIT OF MANDAMUS on each party to
the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

3()I-V\ (T. Pnltav . I) {-fnt

,,-f 4ke

A4-W-,,fu

of
I

P,l Go* \ozn
1

/ - IK /\ rf-J n

At. ^ 8 01

I declare under penalty of penury that the foregoing is true and correct.
Executed on

Qddkr

L

i

2()P

(Signature)

